Case no.: 20-5329

IN THE
SUPREME COURT OF THE UNITED STATES

DOUGLAS DEAN SCYPHERS
PETITIONER, PROSE

vs.

STATE OF WASHINGTON, ET. AL.
Respondents

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNIAli STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

ON PETITION RR A REHEARING

DOUGLAS DEAN SCYPHERS
DOC # 404358
Coyote Ridge Corrections Center
GA 24-2U
P.O. Box 769
Connell, WA. 99326

A-1
Statement of Grounds

If I was charged in a Federal Court for the exact same charges, I would
have been given a Grand Jury.
The Sixth Amendment fundamental right to informed of allegations prior to
being charged.
The Grand Jury is protected by the Due Process Clause of the Fifth
Amendment, which is incorporated into the Incorporation Doctrine made
applicable to the states.
In Ramos v. Louisana, 2020, Hurtado is called into question.
The State of Washington is limited by the Equal Protection Clause.
Washington State violates the Separation of powers by infringing upon the
check and balance between the Legislative and Judicial powers.
Because Washington State is named a party, the Supreme Court has Original
jurisdiction (See Appendix 'A').

TABLE OF CONTENTS
PAGE
Declaration of Word Count

cover

Certification of Counsel

oover

Declaration of Good Faith

cover

Declaration of Grounds

cover

Questions Presented
List of Parties

ii

Table of Authorities

iii

Statement of Grounds

A-1

Opinions Below

1

Statutory Provisions Involved

1

Statement of the Case

4

Reasons for Granting the Petition for Rehearing

9

Appendix:
Appendix Table of Contents

11

Ninth Circuit Remand to U.S. Supreme Court

A

U.S. Supreme Court Denial Letter
U.S. Supreme Court Correction Letter

PAGE
QUESTIONS PRESENTED

Does Due Process require that evidence used to convict an accused person
be reliable?
If I would have been tried in a Federal Court, would I have been given a
Federal Grand Jury to defend my life, liberty, and or property, from
allegations prior to being charged with a crime under the Due Process
Clause of the Fifth Amendment?
Is the Due Process Clause of the Fifth Amendment the same as the DueProcess Clause of the Fourteenth Amendment?
a. If yes, was I denied my right to a Grand Jury under the Due Process
Clause of the Fifth Amendment as it applies to the states?
Does the Grand Jury inform the nature and cause of the allegations made
against a criminal defendant?
Do the rights incorporated in the Sixth Amendment protect the criminal
defendants fundamental rights to a fair hearing of the nature and cause of
the allegations prior to being charged?
Based on Article III, section 2, of the U.S. Constitution, where a state
is named a party, does this Supreme Court have original jurisdiction in
this matter?

page ii
LIST OF PARTIES

[X] All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is
the subject of this petition is as follows:

State of Washington
Jeffrey Uttecht, Superintendent of C.R.C.C.

page iii
TABLE OF AUTHORITIES
CASES
Betts v. Brady (1942)
pages: 4
Dartmouth v. Woodward
pages: 4
Gautt v. Lewis (2007)
pages: 5
Gideon v. Wainwright (1963)
pages: 4
Grannis v. Ordean (1914)
pages: 5
Hurtado v. California (1884)
pages: 6 and 7
Jackson v. Virginia (1979)
pages: 5
Ramos v. Louisiana (2020)
pages: 7
Star v. Obenland (2015)
pages: 5
State of Washington v. Davis (2000)
pages: 5
Weinberger v. Weisenfeld (1975)
pages: 7

page iv
TABLE OF AUTHORITIES continued
STATUTES AND RULES

Rules of the Supreme Court of the United Staes:
Rule 17
pages: 3 and 9
Rule 44
pages: 2 and 9
Washington State Rules for Superior Court:
Rule 2.2
pages: 2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Article III, Section 2
pages: 1 and 9
Fifth Amendment
pages: 1, 6 and 7
Sixth Amendment
pages: 2 and 5
Fourteenth Amendment
pages: 2 and 7
Washington State Constitution:
Article I, Section 26
pages: 2 and 4

page v
TABLE OF AUTHORITIES continued
WORK CITED
Black's Law Dictionary, 11th edition, (2019)
pages: 6
The Oxford Companion to the Supreme Court of the United States,
Second edition, (2005), Oxford University Press; New York
pages: 4

page 1
IN THE
SUPREME 0OURT OF THE UNITED STATES
PETITION FOR A WRIT OF CERTIORARI
AND
PLELLION FOR A REHEARING

OPINIONS BELOW

Petitioner respectfully prays that a petition for rehearing issue to review
the judgment of the writ of certiorari.

STATUTORY PROVISIONS INVOLVED

United States Constitution:
Article III, Section 2: "The judicial power shall extend to all cases...
in which a state shall be party, the Supreme Court shall have original
jurisdiction."

Fifth Amendment: "No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a grand
jury... nor be deprived of life, liberty, or property, without due process
of law."

page 2
STATUTORY PROVISIONS INVOLVED continued

Sixth Amendment: "In all criminal prosecutions, the accused shall enjoy the
right to... be informed of the nature and course of the accusation."

Fourteenth Amendment: "All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the United States
and of the state wherein they reside. No state shall make or enforce any
law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws."

Washington State Constitution:
Article I, Section .26: "No grand jury shall be drawn or summoned in any county
except the superior judge thereof shall so order."

Washington State Rules for Superior Court; Superior Court Criminal (CrR):
Rule 2.2, Warrant of Arrest and Summons.
(c), Requisites of a Warrant: "The warrant shall be in writing and in the
name of the State of Washington."

Rules of the Supreme Court of the United States,
Part VIII, Disposition of Cases - Rule 44. Rehearing.:
1. "Any petition for the rehearing of any judgment or decision of the Court

page 3
STATUTORY PROVISIONS INVOLVED continued
on the merits shall be filed within 25 days after entry of the judgment
or decision... that it is presented in good faith and not for delay...
and will not be granted except by a majority of the Court, at the instance
of a Justice who concurred in the judgment or decision."
"...its grounds shall be limited to intervening circumstances of a
substantial or controlling effect or to other substantial grounds not
previously presented..."
"...in the absense of extraordinary circumstances, the Court will not
grant a petition for rehearing without first requesting a response..."

Rules of the Supreme Court of the United States,
Part IV. Other Jurisdiction - Rule 17. Procedure in an Original Action.:
1. "This rule applies only to an action invoking the Court's original
jurisdiction under Article III of the Constitution of the United States."

page 4
STATEMENT OF THE CASE
Article I, Section 26 of the Washington State Constitution is
unconstitutionally vague. The State's practices of drawing or summoning Grand
Juries in State criminal proceedings (in accordance with other Washington
State statutes, rules, and laws - see: Writ of Certiorari, docket # 20-5329)
are also vague, unequal, and contradictory. This Petition for a Rehearing
expands upon that argument, by highlighting the important role the Grand
Jury plays in the cycle of justice.

Like BETTS, If I was tried in a Federal Court, I would have been given my
complete Due Process guarantees of a fair hearing, including the right to
a Grand Jury, which, interestingly enough, Washington State has. "Justice
Black... in BETTS, emphasized that Betts's petition would have been granted
had he been a defendant in federal criminal proceedings, that the petitioner
was entitled to the procedural protection provided by the federal
Constitution... aXIS was ultimately overruled by GIDEON, where the`. nority
position in BELLS was unanimously adopted by the Court." (see: Work Cited
(2), page 81.)

A fundamental element of Due Process is the adequate notice of the allegations
prior to the government's deprivation of one's life, liberty, or property;
and the opportunity to be heard and defend one's right to life, liberty,
or property. Daniel Webster, DARTMOUTH, declared that Due Process of Law
meant, "The law which hears before it condemns..." This train of thought
can apply to the Grand Jury, who hears all of the "facts" before it condemns

page 5
or not condems. Unlike an information from a prosecutor, who condemns first
and then is unwilling to hear, because the goal of the prosecutor is to win
cases by prosecuting the deferwlexnt;

unfortunately, if the defendant is

actually guilty or not, is taken with little regard. This is about receiving
notice of the allegations and a fair hearing concerning the allegations prior
to charging. "A person cannot incur the loss of liberty for a criminal offense
without notice and a meaningful opportunity to defend." - JACKSON. "The
fundamental requisite of due process of law is the opportunity to be heard."
- GRANNIS. "Due Process requires that the evidence used to convict an accused
person is reliable." - STAR, which is what a Grand Jury determines. "The
failure to accord an accused a fair hearing violates the minimal standards
of due process." - STATE OF WASHINGaUN.

"The Sixth Amendment guarantees a criminal defendant the fundamental right
to be informed of the nature and cause of the charges made against him so
as to permit adequate preparation of a defense... this guarantee is applicable
to the states through the due process clause of the Fourteenth Amendment."
- GAUTT. The State of Washington requires me challenge the allegations after
the charge by an information and assumption of guilt. This is a violation
of my Sixth Amendment rights. A Grand Jury would have informed me of the
allegations made against me, and if I was indicted, it would have permitted
me time to prepare for a defense against the allegations.

In state criminal proceedings, Due Process is guaranteed in every step of
the process, except for the right to a Grand Jury. That crucial step is

page 6
skipped, which no longer constitutes a fair hearing. I did not get a chance
to challenge the allegations until after the information. An information
creates an arrest warrant. A pre-indictment creates opportunity to defend
against alleged accusations and or charges. A fair hearing is a crucial part
of Due Process; Notice of the allegations is a crucial part of Due Process;
yet, an information cannot give either of these. HURTADO may say, "An
information can be substituted for an indictment," but an information cannot
be substituted for a fair hearing. Part of the job of the Grand Jury is to
have the defendant "save face" if the allegations are proven to be unfounded;
however, an information contradicts this philosophy. An indictment says,
"innocent until proven guilty." While an information says, "guilty, now prove
you are innocent."

HURTADO states: "Indictment by a grand jury is not part of the due process
guarantees of the Fourteenth Amendment that apply to state criminal
defendant." Then let HURTADO stand, so long as I can claim my right to a
Grand Jury under the Due Process Clause of the Fifth Amendment, which does
apply to state criminal defendants. "There are two Due Process Clauses in
the U.S. Constitution, one in the Fifth Amendment applying to the federal
government, and one in the Fourteenth Amendment applying to the states
(although the Fifth Amendment Due Process Clause also applies to the states
under the incorporation doctrine.)" - see: Work Cited (1) under "Due Process
Clause." Through the process of elimination (and Black's Law Dictionary
definition), there are only three portions of the Bill of Rights which are
not incorporated; and the Due Process Clause of the Fifth Amendment is not

page 7
one of the three. Therefore, the Grand Jury Clause can legally fall under
the protection of the Due Process Clause of the Fifth Amendment; which in
turn, falls under the protection of the Due Process Clause of the Fourteenth
Amendment.

However, if the Court deems that the Due Process of the Fifth Amendment does
not apply to the Grand Jury for state criminal defendants, then HURTADO must
"not" stand, as it has already been called into question by RAMOS. In RAMOS,
part of the dissent stated that, "If we took the same approach to the HURTADO
question that the majority takes in this case, the holding in that case could
be called into question." If HURTADO was actually good case law (which it
is not), there would never be a worry of it being called into question. Yet,
through RAMOS, there is reason to question HURTADO.

Furthermore, the State of Washington is limited by the Equal Protections
Clause of the Fourteenth Amendment, which the Grand Jury Clause also falls
under the protection of, and has been entrusted with the role of ensuring
that me and all its citizens, are equally treated by the government under
this Clause, equal to every other American. Regardless if it is at the Federal
or State level, the guarantee of Equal Protection under the Fifth and
Fourteenth Amendments are equivalent. "This Court's approach to the Fifth
Amendment equal protection claims has always been precisely the same as to
equal protection claims under the Fourteenth Amendment." - WEINBERGER.

page 8
Without a Grand Jury, there are no separation of powers, and the State of
Washington would be in the words of James Madison, "A judge in his own cause."
Those separation of powers are a must. A Grand Jury, after hearing all of
the evidence presented, decides to either indict or not to indict and of
which charges to indict with or without. If the Grand Jury chooses indict,
it then up to the prosecutor to charge or not to charge (the prosecutor cannot
charge when there is no indictment). However, in a system reliant on a
prosecutor's information, there are no separation of powers. The entire
decision to charge falls into the hands of a single person. Our Justice System
like other areas of the government, was created with a clear separation of
power. An information removes that separation, yet retains all the power.
We simply cannot sacrifice liberty for the sake of convenience.

Once this nightmare is over and I go home, I do not plan on ever being
incarcerated. But in the future, if a foJSe accusation or an unforseen
accident happens, then once again, I have my hands in the fate of the Justice
System. I pray that never happens, but if it comes to be, I need the Grand
Jury in place to protect my rights of Due Process and Equal Protection of
the law. And even though the State stole my life and things can never be
as they were, I deserve my life back. To try to rebuild. To be there for
my loved ones. This Court can give me a second chance at life, and give me
the opportunity to create a brighter future. Ultimately, my Petition(s)
stem from the need to be granted relief from confinement and having my record
expunged. There are just reasons to support, and grant, my request for relief.

page 9
REASONS FOR GRANTING THE PETITION
I respectfully ask the Court that this Petition for a Rehearing be heard
due to the "Extraordinary Circumstances" presented. I have shown,:o0spitiromsk
the original Habeas, other petitions, and my Writ of Certiorari, that I have
preserved my right to Supreme Court review through "Original Jursidiction."

Article III, Section 2 of the Federal Constitution staes that, "The judicial
power shall extend to all cases... in which a state shall be a party, the
Supreme Court shall have original jurisdiction."

I have demonstrated that:
Thee are controversies- between the laws of the United States and the
laws of Washington State.
I have called into question the validity of a State's statutes, rules,
and or laws.
I claim all of my Rights, my Privileges, and my Immunities under the
United States Constitution.

Through my petitions, the Court will find that the Respondent has always
been the State of Washington. Jeffrey Uttecht is my keyholder and
representative of the state (see: Washington State Rules). The lower courts
could not, and should not, have ruled on my case due to the U.S. Supreme
Court having original jurisdiction. I petitioned the Ninth Circuit Court
of Appeals to Remand my case to the U.S. Supreme Court as they did with Mr.
Downing. (see: Original Writ of Certiorari and Appendix 'A' of this Petition

page 10
REASONS FOR GRANTING THE PETITION continued
for a Rehearing). However, my petition went unaddressed by the Court, where
I filed a Writ of Certiorari directly to the U.S. Supreme Court, where it
was denied without the merits of the case being fully presented. I am asking
the Court for a chance to be heard, fairly, on the merits of the case, and
in good faith. I fall on the mercy of the Court, in asking that this Petition
be granted.

I humbly admit that I had no idea what I was doing most of the time, and
that the procedures on how to get my case properly presented through each
level of the courts were not always followed in a proper manner; not on
purpose though, but due to a lack of understanding. As a ProSe litigant,
which is not an excuse, I ask the Court for latitude and leniency by allowing
me to proceed, because if I have learned anything, it is that my case has
merit and has standing.

CONCLUSION
This Supreme Court should grant this Petition for a Rehearing and allowing
my original Petition for a Writ of Certiorari to be granted.

Respectfully submitted,

Douglas Dean Scyphers, Petitioner, ProSe
October 25th, 2020

Page 11
APPENDIX TABLE OF CONTENTS

Ninth Circuit denial letter excluding docket #5 and the Remand to U.S.
Supreme Court, docket #5 filed in the Ninth Circuit.
U.S. Supreme Court denial letter, dated October 5th, 2020.
Letter from the U.S. Supreme Court for correction. Dated November 6th,
2020.

APPENDIX ' A '

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 15 2020
MOLLY C. DVVYER, CLERK
U.S. COURT OF APPEALS

DOUGLAS DEAN SCYPHERS,
Petitioner-Appellant,
v.
STATE OF WASHINGTON,

No. 20-35116
D.C. No. 2:19-cv-00409-SMJ
Eastern District of Washington,
Spokane
ORDER

Respondent-Appellee.
Before:

CANBY and CALLAHAN, Circuit. Judges.

The requests for a certificate of appealability (Docket Entry Nos. 4, 6, 8, and
it
10) are denied because appellant has not shown that "jurists of reason would find
al
debatable whether the petition states a valid claim of the denial of a constitution
right and that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484
(2000); see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-4
(2012).
Any pending motions are denied as moot.
DENIED.

1

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 62 of 69

Page RO-1
UNITED STATES CIRCUIT COURT OF APPEALS FOR THE NINTH CIRCUIT

-1)OUGLA5 D. ScNipllets
Petitioner
V.

D -3511 (14
D.C. 007, 2:19- cv - 0040 q- stirs

CASE No:

FectuE-s1 To I MAIOCASE To TN e
UNITE-1) STATES SUp1.EN1 C0V'R,-

STATE OF WASHINGTON
Respondent

REQUEST TO REMAND CASE TO THE UNITED STATES SUPREME COURT
Petitioner respectfully submits to the court for consideration, this Request to Remand Case to the United States
Supreme Court.
Petitioner has submitted a Writ of Habeas Corpus pursuant to Title 28 U.S.C. § 2254. This Writ of Habeas Corpus
was summarily dismissed by the United States District Court for the FASTeKN1
District of Washington
3rd
Ftg?-ki ARV
on
day of
, 20
2
, by District Court Judge
SM-VA DOR Kern) 07-A 3-g •
. And on (=ITN,
day of F -13R.tiA-KY
, 20 -'
Petitioner filed an appeal to the United States Circuit Court of Appeals for the Ninth Circuit citing the intrinsic fraud
and official misconduct committed by the Judge and court as a result of the dismissal and breach of legal duty. The
20-35110
appeal was assigned case number:
by the Circuit Court of Appeals.
Petitioner respectfully requests that the United States Circuit Court of Appeals for the Ninth Circuit immediately
remand this case to the United States Supreme Court for legal disposition and adjudication, in accordance with Article
III. Section 2 of the United States Constitution, which states, "In all cases in which a State shall be Party, the supreme
Court shall have original jurisdiction." In the current case: scyPHERS
v. State of Washington,
20- 3611 b
case number:
, a State (Washington) is clearly named Party, therefore, the
ruling by
SA IVA DMZ NICNDo211 TR .
, United States District Court Judge for the
S 'MR
District of Washington, is unconstitutional and as a result, improper and illegal.CAll

juNciprry Aci .1 &TAT, 7F3 (I TV.-1), tko\bes Fo Supg
)
.
-e.\,1,/
OF STATU TES OK 6TATL-: S7A-TUTI_;5-2 1 1-m -r M A- ):
Klueg 1 I-Yu C__ONT) rk.AT

Ljb

Tuij b NA-L. Ty OF -Mil- AC_T VAs

kCTI-)1=1- csqp-gemE

It <1 mAKTiki

3O4(1(0
tqD Cold Ns v., VI R61NIA)
S, a 64 (ib2-1) Bur WAS Umau) EA-c.Pr
LE-35L-7G4 VI

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 63 of 69

Page RO-2
Due to this jurisdictional error, the only court with authority to resolve the petition and mitigate the unconstitutional
ruling, is the court which had original jurisdiction in the case. The United States Circuit Court of Appeals does not
have legal authority to appeal this case, as the United States District Court did not have legal authority to rule on this
case. In the courts order summarily dismissing the petition, the District Court Judge acknowledged his lack of
jurisdictional authority in the case, yet chose to exceed the power or authority statutorily conferred upon him, in
violation of the United States Constitution. As a result of the "State of Washington" being named as a "Defendant"
the United States Supreme Court had original jurisdiction in the matter, in accordance
with Article III. Section 2 of the United States Constitution. Judge 5,11-VADoR mErioa za
and the
United States District Court for the eas' TERM
District of Washington illegally and unlawfully ruled on
this petition resulting in an unconstitutional judgement in the civil action, therefore, this case should be immediately
remanded to the proper court having jurisdictional authority: The United States Supreme Court, in accordance with
the United States Constitution.
in further consideration of this matter, the court has identified the case Hurtado v. California, (1884) 110 U.S. 516
as representative case law sufficiently able to deprive United States Citizens of fundamental Constitutional rights, in
this case, an indictment by a Grand Jury before being held to answer for an infamous crime, in accordance with the
5th Amendment to the United States Constitution. However, the ruling for Hurtado v. California, is in violation of
Article III. Section 2 of the United States Constitution and therefore, unconstitutional, resulting in an illegal and
nullified ruling,
State is named a Party (California)
Hurtado v. California, (1884) 110 U.S. 516 , 74 S. Ct. 111
District Court Decision/ 7Subsequent Supreme Court Ruling
Since a State was named a Party (California), the federal district court did not have jurisdictional authority to rule on
the petition, rendering the decision unconstitutional, as well as subsequent decisions rendered by or predicated upon
the first unconstitutional decision from the district court, which includes the subsequent Supreme Court ruling (74 S.
Ct. III).

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 64 of 69

Page RO-3
If the original ruling is unconstitutional, then obviously all subsequent rulings predicated upon it are also
unconstitutional. The Bible, as well as the legal system utilizes the analogy of a "Tree"[1] to describe this situation,
whereby it states, "If the tree is bad, it cannot produce good fruit", the root is bad and therefore, the "Fruit" or progeny
produced from it is also bad.
The court has also identified the case Gaines v. Washington, (1928) 277 U.S. 81 as representative case law
governing this petition however, it also is in violation of Article III. Section 2 of the United States Constitution, based
upon the same argument raised above for Hurtado v. California.
State named a Party (Washington)
Gaines v. Washington (1928) 277 U.S. 81
District Court Decision
In addition to the unconstitutionality of the ruling in Gaines v. Washington, whereby the ruling itself is in violation of
the Constitution, due to the jurisdictional error, its ruling derives from or is progeney to the unconstitutional ruling in
Hurtado v. California, thereby further nullifying it beyond simply the jurisdictional error.
As a result of the unconstitutionality of both Hurtado v. California and Gaines v. Washington and their nullification,
no laws or rulings exist allowing for United States Citizens to be deprived of the fundamental Constitutional right of an
indictment by a Grand Jury. The United States Supreme Court has NOT setteled this matter and the State of
Washington has an unconstitutional provision in its inferior constitution, to which the Petitioner is being illegally and
unlawfully held in violation of the United States Constitution and is therefore entitled to immediate relief and unilateral
expungement from his unlawful confinement.
The great philosopher Nietzsche once said, "Those who fight monsters should see to it that in the process they
don't become a monster." There are two vastly opposing legal doctrines at work in America at this time. Our system
of government is founded upon the "government of laws" doctrine, which is Constitutionally based. It is built upon the
theory that in order for laws to be legitimate, they must be considered just and equal[2]. This is the way that our
system is designed to work, based upon a fixed set of laws or principles in which the courts and people adhere to,
and to which every United States Citizen is accustomed to. The opposite of the Government of Laws doctrine is the
"Legal Realism" doctrine, which is very much alive and at work here in America destroying our system of government
and infringing on the rights of the People. Legal Realism of course is the theory that law is not based on formal rules
or principals, but instead upon judicial decisions
Fruit from the poisoness tree doctrine.
The "innocent until proven guilty" theory demands equality between parties in the eyes of the Judge. Start with
innocense therefore, you must also start with equality.

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 65 of 69

Page RO-4
deriving from their own social, political or public policy. This doctrine is not Constitutionally based and does not permit
the fair and equal treatment of people. An excellent example of Legal Realism is the belief that a Judge-made ruling,
such as Hurtado v. California, can alter the provisions and guarantees of the United States Constitution. When one
attempts to combat the doctrine of Legal Realism, they often times utilize horrible judicial decisions, such as Plessy v.
Ferguson (1896) and Dred Scott v. Sandford (1857), where the United States Supreme Court Chief Justice Honey
stated in his assenting opinion that, "Blacks are not and were not intended to be included under the word "Citizen" in
the Constitution. Blacks are so far inferior that they have no rights which the white man was bound to respect. Slaves
are private property protected by the Constitution." I don't think that only United States Citizens today can help but
feel shame and anger at those horrible words spoken by the highest member of the highest court in the land. There is
no doubt that decision was made at a time of great conflict for our nation and clearly biased in sympathy of the South.
The alteration of the Constitution in order to perpetuate slavery is not approved by God and should never be
supported by good men. What has happened has happened, but to deny it would be a greater travesty. A slave
based system cherishes ignorance because that is the only security for oppression. Slavery is the mortal antagonist
to our democratic institution. Truth is the only thing in which people can be certain of, but truth doesn't cease to be
truth simply because no one has the courage to speak up to defend it, or because someone else disagrees with it.
Truth is never dependent upon the concensus of opinion. If a thousand people believe something to be foolish, yet
one person know it to be true, it is still true. Truth can never be made a lie any more than a lie can be made truth. The
truth is that slavery by any other name is still slavery. Simply retitling it "Justice" doesn't make it any less appalling.
Changing it from a private institution to a State-run institution doesn't make it any more Constitutionally acceptable. It
is still slavery and it is still a horrible injustice and wrong against humanity, regardless of what you call it, or how you
disguise it.
While we are on the topic of truth, let's produce some more truth. In the case of Plessy v. Ferguson, there were
eight of the nine United States Supreme Court Justices who all assented to the opinion that, "Black's are not people
an therefore, not entitled to the protection of the United States Constitution" and "Black's are so far inferior that they
have no right which the white man was bound to follow." In this case, there was one single, brave, Supreme Court
Justice who dissented with the rest stating, "Our Constitution is color-blind and neither knows nor tolerates classes
among citizens. In respect to civil rights, all citizens are equal before the law." This brave Patriot was Justice John
Marshal Harlan and this wasn't the only time that he found himself as a lone dissenter against every other Justice on
the United States Supreme Court. One other such instance was in the case of Hurtado v. California. The truth is that
the same eight of the nine United States Supreme Court Justices who said that, "Slaves are private property
protected by the Constitution", also said that United States Citizens are not protected by the provisions and
guarantees of the 5th Amendment.

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 66 of 69

Page RO-5
The truth is that the same eight of the nine United States Supreme Court Justices who said, "Black's are not people",
also said that the United States Constitution is not the supreme Law of the land and does not enjoy legal superiority
over conflicting provisions with State constitutions. The truth is that the same eight of the nine United States Supreme
Court Justices who said, "Black's are inferior to the white man", also said that geographical discriminations are
acceptable under our Constitution of government. The truth is that the same eight of the nine United States Supreme
Court Justices who said, "Black's are not and were not intended to be 'Citizens' in the Constitution", also said that
States have the right to abridge the privileges and immunities of the United States Citizens. The truth is that eight of
the nine United States Supreme Court Justices who allowed their political interests for the advancement of an
industry to cloud their judgement, also put into practice a ruling intended to advance that industry under another
name, overstepping the Seperation of Powers and legislation from the bench, in violation of the United States
Constitution and the Oaths of the Offices for which they serve. George Washington voiced his concern about
geographical discriminations in his farewell address, where he stated, "In contemplating the causes which may
disturb our union, it occurs as a matter of serious concern, that any ground have been furnished for characterizing
parties by Geographical discriminations, whence designing men may endeavour to excite a belief that there is a real
difference of local interests and views." Foreseeing the potential for dissention here in America, Mr. G. Washington
advised vigilance against, "The first downing of every attempt to alienate any portion of our country from the rest or to
enfeeble the sacred ties which now link together the various parts." The bonds which unite us as one people are:
origin, language, belief, and laws. These are the four great ties that hold our whole society together. The Constitution
binds the American people to goals that are incompatible with slavery. President Abraham Lincoln said, "It has long
been a grave question whether any government, not too strong for the liberties of its people, can be strong enough to
maintain its own existence in great emergencies." United States Supreme Court Justice Thurgood Marshall echoed
this sentiment when he said, "Grave threats to liberty come in times of urgency, when Constitutional rights seem too
extravagant to endure." The strongest bond which holds our nation together is faith in the laws between us. This is
not the United States of California or the United States of Washington. Men and women didn't serve their country in
the military fighting for Texas or Alabama, they were and are defending America, as I am now and as I will continue to
do until such time as God or death has relieved me of my obligation. It is time now for the courts to do the same. Here
is some more truth. The truth is that United States Citizens are governed by laws of the United States. The truth is
that United States Citizens are guaranteed the rights secured by the United States Constitution. The truth is that no
person can be held to answer for an infamous crime without an indictment by a Grand Jury.

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 67 of 69

Page RO-6
The truth is that one brave Supreme Court Justice did the right thing and stood for American principles despite fierce
opposition at a time of great peril and his sage wisdom can be trusted today. God bless Justice John Marshal Harlan.
The truth is that United States Citizens can believe and have faith in the United States Constitution, because the truth
can always be trusted to fight our battles the truth can always defend itself, as long as there is someone with the
courage to speak it.
The role of government is to govern, but that role to govern must be fair. Government ceases to govern when it
chooses to take sides it is no longer governing, rather ruling. Every Citizen is equally entitled to fair and equal
governing in the same way that every Citizen is entitled to equal protection of the laws. Thomas Jefferson voiced this
to us when he said, "Bear in mind this sacred principle, that though the will of the majority is in all cases to prevail,
that will to be rightful, must be reasonable that the will of the minority posses their equal rights, by which equal law
must protect and to violate would be oppression." To understand the rationale behind Article III. Section 2 of the
United States Constitution, which states, "In all cases in which a State shall be Party, the supreme Court shall have
original Jurisdiction", we can turn to the author himself and the words that he published in "The Federalist Papers"
Circular Number 10, New York Packet, November 23rd, 1787, the article titled, "The Union as a Safeguard Against
Domestic Faction and Insurrection." In the article, James Madison, stated, "No man is allowed to be judge in his own
cause, because his interest would certainly bias his judgement, and not improbably, corrupt his integrity. With equal,
nay with greater reason, a body of men are unfit to be both judges and parties at the same time." States cannot be
and were never intended to be, both judge and party in the same cause, because of the bias, prejudice and partiality
which would ultimately transpire as a result of it. States cannot be both an accuser and a judge, or else innocense will
v. State of Washington, in
suffer. So, in the same way and for the same reason why SC ypti ERS
SCYPIIrKS
, in
the current civil action is unconstitutional, so, also is the State of Washington v.
the original criminal action is unconstitutional.
State is named Party.
—RS
SCYrHt

v. State of Washington, 2:11

State of Washingtontr DocALA r
State is named Party

District Court Decision

. ScYPIIERS

,

00109— SMT

1— 02e15 0- I

\\N
Superior Court of Washington Decisior

If 1 + 2 = 3 is unconstitutional, then obviously, 2 + 1 = 3 is also unconstitutional, simply rearranging the order of the
Parties, does not magically change the representation of the Parties.

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 68 of 69

Page RO-7
Article III. Section 2 of the United States Constitution clearly states, "In all cases in which a State shall be a Party, the
SC ypti ERS
v. State of
supreme Court shall have original Jurisdiction." As a result, both
are unconstitutional and therefore,
Washington and State of Washington v. 'DOtA Et LAS D . Stye ERs
illegal and the only court with jurisdictional authority to resolve both cases is the court which had jurisdictional
authority in the cases to begin with, which is the United States Supreme Court, in accordance with Article III. Section
2 of the United States Constitution.
Our forefathers who framed our Constitution were simple, yet wise men. They weren't establishing complex
principles or elaborate institutions to which only men of rich, or noble, or educated backgrounds could understand.
The forefathers were simply trying to create an accounting system which adequately and fairly reconciled the debt
owed to society. If you choose to violate the law, you incur a DEBT that is OWED to society, to which you are
CHARGED and called to ACCOUNT so that you may PAY the debt. These are all simple accounting terms. The way
that debt normally works is, if I went to purchase something from a store, a bill will first be generated, which I sign and
accept. Then my account is charged and I incur a debt, to which I then have to pay. This is a very simple method for
transactions to which anyone can understand. However, if the store charges a persons account without billing them
first, that is called fraud. You must always bill before a charge is generated. How all of this applies to this case is that
an indictment is called a "Bill". So, absent an indictment, people are being charged fraudulently because they are not
being billed first. Understanding this now, any person who claims that a Bill of Indictment is not first needed before
charging someone's account, doesn't understand the basic principles and practices of the system they are dealing
with. As a result of this very basic, fundamental element of our nations legal accounting system being ignored,
millions of United States Citizens have, incurred illegal and fraudulent debt. America must address this accounting
flaw in our legal system.
In accordance with Rule 23 of the U.S.C.S. Rules of Civil Procedure and in light of all the afore mentioned
evidence, as well as the supporting evidence, Petitioner asks the United States Supreme Court to authorize the
application of the CLASS Action device in this Habeas Corpus proceeding. Included within Addendum III, the court
will find the names of only a few of the hundreds of Petitioners who filed a Writ of Habeas Corpus pursuant to Title 28
U.S.C. § 2254 after April 10th, 2019 who's cases raised the exact same allegations and were illegally and
unconstitutionally dismissed by the United States District Court, despite the jurisdictional error and who are all now
entitled remanding of the case to the United States Supreme Court for legal and Constitutionally acceptable
adjudication.

Case: 20-35116, 03/03/2020, ID: 11618832, DktEntry: 5, Page 69 of 69

Page RO-8
The last point that I would like to make is that, every single thing that I am advocating is consistent with God's divine
attributes release of prisoners, return of exiled captives, love in lieu of hate, compassion and not condemnation,
forgiveness instead of vengeance, and equity and not tyranny. I know what side I am on, so, ask yourself, if I fight for
God and you fight against me, who is it that you are fighting for?
Respectfully and eacefully

Dow-It-As

D.

rvant of Justice,

cw-h)e- Rs

Petitioner, ProSe

LATE: ?-27-?ozo

APPENDIX ' B '

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
October 5, 2020

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Douglas Dean Scyphers
Prisoner ID #404358
Coyote Ridge Correctional Center, GA 24-2U
POB 769
Connell, WA 99326

Re: Douglas Dean Scyphers
v. Washington
No. 20-5329

Dear Mr. Scyphers:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

APPENDIX 'C'

